No. _____
IN THE SUPREME COURT OF THE UNITED STATES

PAUL ASHBY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
Samia Fam, a member of the Bar of this Court and the Counsel of Record for
Petitioner, hereby attests that on June 28, 2021, she sent one copy of Mr. Ashby’s
Petition for Writ of Certiorari to:
Elizabeth Prelogar, Esquire
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530-0001

Chrisellen Kolb, Esquire
Chief of the Appellate Division
Office of the United States Attorney for
the District of Columbia
555 Fourth Street, NW
Washington, DC 20530

by placing this document in properly addressed envelopes with fully prepaid firstclass postage affixed thereon, and depositing the envelopes with the United States
Postal Service. Electronic copies of these documents were also delivered via e-mail to:
supremectbriefs@usdoj.gov and Chrisellen.R.Kolb@usdoj.gov@usdoj.gov.
/s/ Samia Fam

SAMIA FAM
PUBLIC DEFENDER SERVICE
633 Indiana Avenue, NW
Washington, DC 20004
(202) 628-1200
Counsel of Record for Petitioner

